No. 20-1473

In the Supreme Court of the United States
ALAN CRITTENDEN,
v.

Petitioner,

MARIKO CRITTENDEN,
Respondent.
RULE 44 CERTIFICATE

CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

RULE 44 CERTIFICATE
Pursuant to Supreme Court Rule 44.1
undersigned counsel for Petitioner certifies that:
1. The within Petition for Rehearing is being
presented to the Court in good faith and not for
purposes of delay. The underlying decision of the
state courts has not been delayed or suspended
pending the disposition of Petitioner’s petition before
this Court.
2. The grounds of this Petition are limited to
intervening circumstances of a substantial or
controlling effect or to other substantial grounds not
previously presented.

Respectfully submitted,
CARSON J. TUCKER, ESQ.
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org
Dated: July 23, 2021

